         OFMC Response: In its response to our draft report, OFMC cited different BIA and
         OFMC project funding totals. OFMC cited the BIA “Program Plan,” dated April 21,
         2009.

         OIG Rebuttal: The totals we reported are found in the BIA “Implementation Plan,”
         dated June 15, 2009.

Findings

Planning, Communication, and Staffing Challenges Impacted Several OFMC Recovery Act
Construction Projects

        When we met with OFMC management in July 2009 during an earlier critical point
evaluation, they reported that they did not receive annual appropriations for project planning for
2 years prior to the Recovery Act.3 This suggests that planning challenges predated the Recovery
Act and that the accelerated contract obligation and project mobilization deadlines associated
with the Recovery Act goals worsened an existing issue. During this evaluation, we found that
OFMC staff turnover and communication challenges contributed to two school replacement
projects and the FI&R projects that we visited not meeting the shovel-ready intent set forth for
Recovery Act projects. The evidence suggests that these challenges increased project costs and
decreased customer satisfaction despite involvement by several BIA offices:

            OFMC’s Division of Planning and Programming (Planning Division), which
             conducted high-level operational planning and developed project budgets;
            OFMC’s Division of Budget (Budget Division), which administered the financial
             decisions made by Planning;
            OFMC’s Division of Design and Construction (project managers), which directly
             oversaw the design process and some details of project planning ;
            BIA’s Division of Safety and Risk Management (DSRM), which conducted safety
             reviews of OFMC’s design submittals as well as safety inspections; and
            several acquisition offices, which procured design and construction-related services
             on behalf of OFMC.

        Project team members told us that communication between OFMC and project
stakeholders contributed to project challenges. Two facility managers, for example, said that they
stopped participating in project meetings because their concerns were consistently overruled or
not addressed. One was asked by OFMC: “Do you want the project or not?” after he spoke up.
The perception by onsite school facility experts that there is a lack of close communication and
coordination with OFMC increases our concerns about effective project planning, especially with
regard to complex construction projects.

      We concluded that the Flandreau project was particularly susceptible to delays due to
communication challenges and staff changes because the project requirements were very
complex. Since the FI&R project at Flandreau began, there have been five different OFMC
3
  See ROO-ROA-BIA-2008-2010, “Indian School Replacement and Repair Programs,” dated April 27, 2010
(http://www.doioig.gov/images/stories/BIA-2008_F4-27-10.pdf).




                                                         2

project managers and assistant project managers. According to one project team member, the
project was delayed after every turnover while new staff familiarized themselves with project
specifics. Based in part on these delays, the budget for Flandreau exceeds the original
$15 million budget by approximately $5 million. Despite the millions of dollars spent at
Flandreau, one school representative said at the time of our visit that the campus was worse than
before the project started.

       OFMC Response: OFMC refuted this finding in its response to our draft report. OFMC
       wrote that “scope and funding changes were discussed with [BIA] staff during project
       assessments held every two weeks on [Recovery Act] projects. Tribes and school boards
       were notified and asked to meet with [BIA] staff at OFMC to discuss scope changes. All
       change orders were handled within the requirements of the [Federal Acquisitions
       Regulations] 638 contract agreement and 297 grant requirements.” In addition, OFMC
       stated that inclement weather, unforeseen conditions, managing scope of the FI&R
       projects, aggressive scheduling due to delays in contract awards, issuance of notices to
       proceed, and security clearance requirements were contributing factors to project
       outcomes.

       OIG Rebuttal: While we agree that these factors pose significant challenges, they do not
       negate the concerns we found during our site visits and the dozens of interviews we
       conducted of field and central office personnel.

Accelerated Project Designs Led to Increased Costs and Safety Concerns

        We found that greatly accelerated obligation and mobilization deadlines mandated by
DOI (March and June 2010, respectively) played a significant role in the number of change
orders made to contracts and resulted in higher costs. Project team members told us that based on
their non-Recovery Act project experience, the planning and design phases of these large,
complex projects—especially the FI&R projects—were in some cases greatly accelerated. In an
effort to streamline acquisition lead times, design documents were issued to eligible contractors
at the 75 percent complete phase.

         On one of the large, complicated projects we reviewed, eligible contractors had fewer
than 30 days to prepare their proposals. After award, the selected contractor proposed change
orders that required reviews and evaluations in consultation with other contractors, the project
inspector and other design team members. In addition to the increased costs to bring the
construction documents (CDs) to 100 percent completion, the operational pressures put on
OFMC, DSRM, and acquisition offices to consider, process, and approve multiple change orders
after task order award diminished the capacity of groups already facing significant organizational
challenges.

        CDs are a critical component of successful project completion. We understand that no
CD set is perfect; however, we learned of projects in which CDs were substantially incomplete
and inaccurate. Some CDs, for instance, did not include infrastructure requirements (e.g., utility
rights-of-way) and hazardous materials assessments (e.g., asbestos abatement) because these
planning elements had not been specified in the contracts with the A-E firms hired to review and
verify planning documents. In addition, accelerated planning and design phases resulted in CDs


                                                3

that did not accurately reflect actual site conditions. None of the projects that we visited, for
example, were released to eligible contractors with full and complete CDs.4 Construction
contractors, therefore, based proposals on preliminary documents, resulting in project delays and
significant cost increases after award.

       In some cases, accelerated project designs led to incomplete construction drawings and
contributed to safety concerns. We found the following at Flandreau:

          	 Flandreau is located in South Dakota, where the winter temperatures average between
             10 and 25 degrees Fahrenheit but can be as low as minus 50 degrees Fahrenheit.
             Insufficient freeze protection installed in the school’s new water tower could leave
             Flandreau without potable water and fire protection in the event of an extended
             freeze.
          	 In February 2011, a lengthy period of cold weather highlighted a lack of adequate and
             consistent ambient temperatures in most classrooms, some of the student dormitory
             rooms, and in all of the dormitory counseling centers. Without remedial action, these
             conditions are likely to reoccur during future freezes. OFMC estimates that necessary
             repairs will not occur until summer of 2012.
          	 The installation of a new and improperly sized water heater in the cafeteria kitchen
             may have caused dishwater temperatures to be inadequate to ensure proper
             sterilization of dishware, cookware, and utensils.

        Unforeseen site conditions at antiquated school facilities are a major issue at more than
one Recovery Act project site. At Sherman Indian School in Riverside, California, for example,
significant environmental and structural issues—asbestos, mold and rusty joists—were
discovered after construction began. The conditions were significant enough that remedial
actions exceeded the project budget, and the school had to eliminate the renovation of three of
the six dorms from the project scope. One team member told us that the remaining dorms are a
safety hazard due to unabated rust, asbestos, and mold conditions. He estimated that OFMC will
need an additional $6 million to complete the project and renovate the dorms. Because the
buildings are at least 40 years old, these types of site conditions are not unusual.

       Three project team members attributed several issues at Sherman to poor design based
primarily on accelerated deadlines:

          	 The A-E firm did not have sufficient review time onsite during the validation and
             design development stages.
          	 Although the project scope included more than 13 buildings, eligible contractors were
             onsite for only 1 day prior to submitting their proposals—not enough time to
             thoroughly evaluate site conditions.
          	 Eligible contractors placed bids based on 90 percent complete CDs, but one team
             member estimated that, based on his construction industry experience, the documents
             were not more than 75 percent complete.

4
  The Kaibeto project was awarded as a two-part construction project (i.e., a design-build project). As a result, 100 percent CDs
would not be expected; however, the planning documents that the successful general contractor based their bid on were
incomplete and not completely consistent with the BIA Design Handbook.




                                                                4

       	 While the original design phase was to last approximately 90 days, it was compressed
          to 60 days in order to meet an accelerated obligation deadline.

        The accelerated planning and design deadlines at the beginning of the projects led not
only to potential safety issues but also to increased project budgets.

       OFMC Response: OFMC wrote in its response: “Changes to scope and funding for the
       major improvement and repair projects were based on encountering more extensive
       deterioration than foreseen during the formulation of the project scope during project
       scope development.” In addition, OFMC wrote that school safety is “never
       compromised” and that unforeseen site conditions cannot be known before demolition
       begins.

       OIG Rebuttal: We understand that site conditions at the older schools could be difficult
       to predict. We maintain, however, that if more extensive testing had been done during the
       planning phase of the FI&R projects to determine the precise nature of facility conditions
       (e.g., asbestos, mold, rusty pipes) rather than contractors relying on visual assessment of
       the facilities, deficiencies could have been incorporated from the beginning of project
       planning, when it is more efficient and less expensive to design the appropriate remedy.

OFMC’s Quality Assurance Process Is Inadequate

        We found that OFMC’s quality assurance/quality control (QA/QC) processes and
procedures contributed to project delays and increased costs. By internal policy, neither OFMC
nor DSRM conducts thorough technical or safety reviews of planning and preliminary design
documents. To ensure adherence to BIA guidelines prior to design and construction contract
solicitation, OFMC’s internal policy relies primarily on contracted A-E firms to know and
implement BIA’s design guidelines and requisite codes as well as to conduct plan reviews.
DSRM typically does a first review when the 70 percent design development drawings and
specifications are submitted. As a result, contractors developed and submitted their proposals
based on incomplete and inaccurate requirements. We learned that at least two contractors
claimed that changes required by DSRM during design development were outside the planning
and preliminary design documents upon which the contractors based their bids, making them
subject to change orders and additional compensation.

       OFMC Response: OFMC stated that its QA/QC protocol is closely followed and that
       onsite inspectors, construction administrators, and commissioning agents ensure that
       projects meet the documented design and performance criteria. Based on OFMC’s policy,
       A-E contractors are responsible for the professional quality, technical accuracy,
       completeness, and coordination of all services required under their contracts as well as all
       BIA health and safety codes and standards.

       OIG Rebuttal: As noted above, the planning and design phases are not subject to an
       independent QA/QC process by OFMC or DSRM. While inspectors, commissioning
       agents, and contract administrators provide real and necessary services after construction
       begins, we found a significant gap in the QA/QC system during the planning and




                                                5

         preliminary design phases. It is far less expensive to incorporate changes while they are
         still on paper than when construction crews are mobilized and working onsite.

Inconsistencies in Recovery Act Project Funding Identified Weaknesses in the Budgeting Process

        Funding of individual school construction and renovation projects starts with identifying
the work to be performed, developing a budget, and then initiating a funding document (FD) to
transfer5 appropriated funds (Recovery Act and non-Recovery Act) to individual project budget
codes. The codes are classified according to the tasks being performed during each project (e.g.,
inspection, site utilities, construction/academic, and construction/dormitories codes). Funding for
a project can also be assigned to a contingency code until it is needed (for example, to fund
contract amendments), whereupon the specific amount is transferred to the correct budget code.

        Our analysis of the funding for five Recovery Act-funded school replacement and FI&R
projects revealed significant problems with project FDs and contracts. We found instances in
which Recovery Act and non-Recovery Act contractual obligations were over- or underfunded,
funding was transferred in and out of budget codes without explanation, and funding identified
for specific contractual obligations was misclassified under the contingency code. One reason for
these issues was that OFMC’s Budget Division staff had been reduced from three analysts
(including the director) to one, and the role of the office6 had been subordinated from functioning
as a control over the use of appropriated project funds to simply processing FDs initiated by the
Planning Division. In August 2011, a new Budget Division director was hired to fill a position
that had been vacant for over a year; the new director is rebuilding the division with active
budgetary control.

        The following are summaries of what we found at the five schools, along with the new
director’s comments:

         •	 Project Funding. In two of the five projects we reviewed, the funding for contractual
            obligations was insufficient or the funding exceeded the obligation. For instance, our
            analysis of the contracts and FDs for the Kaibeto School replacement project
            identified a $299,593 post-Recovery Act contractual obligation, dated February 18,
            2011, for a generator. As of September 2011, however, there was no corresponding
            FD to fund the obligation and thus no means of transferring the funds to the
            appropriate budget code.

              In another example, the Cibecue project showed that Recovery Act funding exceeded
              contractual obligations by $126,164 under demolition and $2,747,297 for the
              construction/academic budget code. In addition, $96,000 of non-Recovery Act
              funding had been provided without any contractual obligations, and the site/utilities
              budget code was funded with $531,000 of Recovery Act funds but with no obligation.



5
  An FD is initiated by the Planning Division and requires various levels of approval. 

6
  The Budget Division’s responsibilities, which include monitoring budget execution within OFMC and maintaining controls on

fund expenditures, mirror those of the DOI Office of Budget. 





                                                             6

           The Budget Division director told us that funding for a project should be based on the
           specific contract obligations and that any shortage or overage should be corrected so
           that the funding accurately matches the contractual obligations.

       •	 Fund Transfers. In three of the five projects we reviewed, FDs had been used to
          transfer money in and out of project budget codes without a specific reason. For
          example, the Kaibeto project had funded $685,067 of non-Recovery Act funds in
          November 2010, but the entire amount was removed in September 2011. For
          Cibecue, the contract administration budget code was initially funded in January 2010
          with $830,000 of Recovery Act monies. By May 2010, however, the code consisted
          of three contracts totaling only $422,183. It took three FDs over a 3-month period to
          reduce the funding enough to bring it in line with the total amount obligated. In
          addition, during January 2010, $1,717,866 of Recovery Act funding for the Flandreau
          project was transferred into and then back out of the contract administration budget
          code.

           The Budget Division director stated that moving money among budget codes
           indicated an insufficient understanding of the funding needed for the projects.
           Further, FDs need to adequately explain the reason for transferring funds.

       •	 Contingency Budget Code. For all five projects, Recovery Act and non-Recovery
          Act funds were misclassified under the contingency budget code even though specific
          contractual obligations had been established. For example, Cibecue had Recovery Act
          and non-Recovery Act contingency funding of $2,413,349 and $559,324,
          respectively. Contract amendments with the prime contractor showed that renovation
          work totaling $323,225 (Recovery Act) and $340,466 (non-Recovery Act) was
          classified as a contingency. Since a contingency is not an allowable project expense,
          the funding should have been transferred from the contingency budget code to the
          appropriate code for this contractual work.

        The OFMC Deputy Director stated that classifying funding for an actual contractual
obligation in the contingency budget code was the office’s usual practice, and that the
contingency account was corrected after the project was completed. The Budget Division
director told us that this practice, even if only temporary, was misleading because it overstated
the amount of money available for projects.

       OFMC Response: OFMC stated that the BIA Budget Office was responsible for the
       budget execution of $305.6 million of OFMC’s Recovery Act programs. OFMC also
       stated that OIG should not have interviewed the Budget Officer because she was new to
       the job.

       OIG Rebuttal: The Budget Office relied on the onsite officials, including budget
       officials within OFMC, to ensure that funding transfers were justified and correct for the
       Recovery funds.

       In addition, we disagree with OFMC’s statement that we should not have interviewed the
       new Budget Officer. The Budget Officer had 18 years of Federal budget experience,



                                                 7

       including experience at the BIA Wildland Fire program in Boise, ID, and at BIA’s
       headquarters Budget Office in Washington, DC. Therefore, the auditor concluded that the
       Budget Officer had more than sufficient experience to knowledgeably answer questions
       regarding the classification of funding and contractual obligations under construction
       budget codes, including the function of a budget office.

Recommendations

       We recommend that the Director, OFMC:

       1.	 Implement an improved project management system to involve project stakeholders
           (e.g., OFMC, DSRM, acquisition staff, Bureau of Indian Education staff, general
           contractor team members, and tribal representatives) and to include regular
           stakeholder meetings, tracking of project milestones, and key activity checklists, for
           example.

       2.	 Ensure that all health and safety issues at Flandreau Indian School are addressed in a
           timely manner, including—

           • 	 insufficient freeze protection installed in the school’s new water tower;
           • 	 inadequate and inconsistent ambient temperatures in some classrooms and student
               dormitories; and
           • 	 installation of a new and improperly sized water heater in the cafeteria kitchen.

       3.	 Incorporate an independent and detailed federal QA/QC process (apart from
           contractor review) by OFMC and DSRM to ensure that planning and design
           documents comply with BIA codes, standards, and guidelines prior to design and
           construction contract solicitation.

       4.	 Implement procedures to keep funding and obligations for project budget codes—
           including the contingency code—accurate.

       OFMC Response: OFMC reported that the safety concerns raised in the second
       recommendation regarding Flandreau Indian School have been resolved, and for that
       reason disagreed with the recommendation. OFMC also disagreed with the remaining
       recommendations because, it says, it has appropriate processes in place and implements
       them.

       OIG Rebuttal: While we understand that systems may be in place at headquarters and at
       the central office, we found a lack of complete implementation at the field level, where
       the majority of project work is actually done.

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions DOI will implement to meet our recommendations, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation. We will post this
advisory on our Web site (www.doioig.gov/recovery/) and on Recovery.gov. Information
contained in this advisory may also be included in our semiannual reports to Congress. We
performed our work in accordance with the applicable Quality Standards for Inspection and


                                                 8

Evaluation adopted by the Council of the Inspectors General on Integrity and Efficiency. Please
contact me if you have any questions.



cc: 	 Deputy Secretary, U.S. Department of the Interior
      Director, Office of Executive Secretariat and Regulatory Affairs
      Director, Office of Acquisition and Property Management
      Acting Director, Office of Financial Management
      Acting Assistant Secretary - Indian Affairs
      Director of the Office of Facilities, Environmental and Cultural Resources
      Director, Office of Facilities Management and Construction
      Departmental GAO/OIG Audit Liaison
      Audit Liaison, Office of the Secretary
      Audit Liaison, Bureau of Indian Affairs
      Recovery Coordinator, Bureau of Indian Affairs




                                                9

          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
